VISA CLASSIC/VISA SECURED
F1
APPLICATION AND SOLICITATION DISCLOSURE
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Classic

F2
3.50%

Introductory APR for a period of six (6) billing cycles.

After that your APR will be F3
to F417.24%
8.24%
based on your creditworthiness. This APR will vary with the market
based on the Prime Rate.
Visa Secured

APR for Balance Transfers

F5
to F617.24% when you open your account,
14.24%
based on your creditworthiness. This APR will vary with the market
based on the Prime Rate.
Visa Classic
F7
3.50%

Introductory APR for a period of six (6) billing cycles.

After that your APR will be F88.24% to F917.24% based on your
creditworthiness. This APR will vary with the market based on the
Prime Rate.
Visa Secured

APR for Cash Advances

F10
14.24% to F11
17.24% when you open your account, based on your
creditworthiness. This APR will vary with the market based on the
Prime Rate.
Visa Classic
F12
3.50%

Introductory APR for a period of six (6) billing cycles.

After that your APR will be F13
8.24% to F14
17.24% based on your
creditworthiness. This APR will vary with the market based on the
Prime Rate.
Visa Secured

Penalty APR and When it Applies

F15
14.24% to F16
17.24% when you open your account, based on your
creditworthiness. This APR will vary with the market based on the
Prime Rate.
Visa Classic
F17
None
Visa Secured

How to Avoid Paying Interest on Purchases
For Credit Card Tips from the Consumer
Financial Protection Bureau

©CUNA Mutual Group 2009, 10, 12 All Rights Reserved

F18
None
Your due date is at least 25 days after the close of each billing cycle.
We will not charge you any interest on purchases if you pay your entire
balance by the due date each month.
To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection Bureau at http://www.consumerfinance.gov/learnmore.

DSCEC1 (MXC402 CCM002)-e

SEE BACK OF PAGE for more important information about your account.

Fees
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
- Transaction Fee for Purchases
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

F19
None
F20
$2.00
F21
1.00%
F22
0.80%
F23
None

of each multiple currency transaction in U.S. dollars
of each single currency transaction in U.S. dollars

Up to F24
$25.00
F25
None
Up to F26
$25.00

How We Will Calculate Your Balance. We use a method called “average daily balance (including new purchases).”
Loss of Introductory APR. We may end your Introductory APR if you fail to pay the minimum required payment by the
payment due date shown on your statement. With the loss of your Introductory APR, the prevailing non-introductory APR
will apply.
Effective Date.
The information about the costs of the card described in this application is accurate as of F27
April 1 2016.
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
OTHER DISCLOSURES
Late Payment Fee
Returned Payment Fee
Statement Copy Fee
Document Copy Fee
Rush Fee
Emergency Card Replacement Fee
PIN Replacement Fee
Card Replacement Fee

F28
or the amount of the required minimum payment, whichever
$25.00
is less, if you are five (5) or more days late in making a payment.
F29
or the amount of the required minimum payment, whichever
$25.00
is less.
F30
First one free
$5.00
F31
$5.00
F32
$25.00
F33
$125.00
F34
$3.00
F35
$5.00

DSCEC1 (MXC402 CCM002)-e

